OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/HAITI’S
PREVENTION OF SEXUAL
TRANSMISSION OF HIV/AIDS
PROGRAM
AUDIT REPORT NO. 1-521-13-004-P
MARCH 27, 2013




SAN SALVADOR, EL SALVADOR 

Office of Inspector General


March 27, 2013

MEMORANDUM

TO:      	         USAID/Haiti Acting Mission Director, Herbie Smith

FROM: 	            Regional Inspector General/San Salvador, Jon Chasson /s/

SUBJECT:	          Audit of USAID/Haiti’s Prevention of Sexual Transmission of HIV/AIDS Program
                   (Report No. 1-521-13-004-P)

This memorandum transmits our final report on the subject audit. In finalizing the report, we
considered your comments on the draft report and have included them in their entirety in
Appendix II of this report.

The report contains eight recommendations to help USAID/Haiti improve the implementation of
its Prevention of Sexual Transmission of HIV/AIDS Program. Based on planned actions
described in your response to the draft report, management decisions have been reached on
Recommendations 1, 2, 3, 4, 7, and 8. Final action has been taken on Recommendation 6. A
management decision has not been reached for Recommendation 5 because the mission’s
response did not fully address the recommendation.

Please give us written notice within 30 days of any actions planned or taken to implement the
recommendation. Please provide the Audit Performance and Compliance Division of USAID’s
Office of the Chief Financial Officer with the necessary documentation to achieve final action on
the recommendations.

I want to thank you and your staff for the cooperation and courtesies extended to us during this
audit.




U.S. Agency for International Development
Embajada Americana
Urb. y Blvd Santa Elena
Antiguo Cuscatlan, Depto. La Libertad
San Salvador, El Salvador
http://oig.usaid.gov/
CONTENTS 

Summary of Results ................................................................................................................... 1 


Audit Findings............................................................................................................................. 4 


     Indicators Lacked Baselines and Did Not Reflect Agreement Requirements ......................... 4 


     Some Reported Results Were Overstated.............................................................................. 5 


     Program Did Not Reach All Targeted Groups ......................................................................... 6 


     Partner Did Not Communicate and Coordinate Activities With Host Government .................. 6 


     Partner Did Not Include Gender Consideration in Program Activities ..................................... 7 


Evaluation of Management Comments..................................................................................... 9 


Appendix I—Scope and Methodology .................................................................................... 11 


Appendix II—Management Comments ................................................................................... 13 





Abbreviations

The following abbreviations appear in this report:

ADS      Automated Directives System
MARP     most-at-risk population
MSPP     Ministère de la Santé Publique et de la Population (Ministry of Public Health and
         Population)
PLACE    Priorities for Local AIDS Control Efforts
PrevSIDA Prevention of Sexual Transmission of HIV/AIDS in Haiti
PSI      Population Services International
RIG      Regional Inspector General
SUMMARY OF RESULTS 

Haiti has an HIV prevalence rate of 2.2 percent among adults between the ages 15 and 49,1 the
highest rate in Latin America and the Caribbean. To support HIV/AIDS prevention, USAID/Haiti
initiated its Prevention of Sexual Transmission of HIV/AIDS (PrevSIDA) program in
September 2010. The 4.5-year program’s overarching goal is “the increased adoption of safer
sexual behavior by Haitian youth and adults”2 to help reduce the spread of AIDS.

PrevSIDA has two components, described below.

	 Component I targeted the general population of youth and adults to provide support for
   prevention through behavior modification. USAID/Haiti awarded a $9 million cooperative
   agreement to World Vision to implement Component 1.

	 Component 2 targeted most-at-risk populations (MARPs),3 groups with a high prevalence of
   risky sexual behavior. It sought to reduce the number of new HIV infections through the
   increased adoption of safer sexual practices. USAID/Haiti awarded an $8.9 million
   cooperative agreement to Population Services International (PSI) to implement
   Component 2.

As of October 23, 2012, USAID/Haiti had obligated $6,620,980 and disbursed $3,392,394 for
program activities.

The Regional Inspector General/San Salvador (RIG) conducted this audit to determine whether
USAID/Haiti’s PrevSIDA program was achieving its main goal of reducing the number of new
HIV infections in Haiti through the increased adoption of safer sexual behaviors.

Two years into the program, PrevSIDA has made only limited progress toward meeting the
objectives of its components. Specifically:

	 Because World Vision did not perform as expected under Component 1, USAID/Haiti
   ceased funding the agreement after the first 15 months of implementation. The mission
   subsequently designed a new component and expected to award it by April 2013. Although
   USAID/Haiti took appropriate corrective action to address World Vision’s nonperformance,
   the resulting delays hindered PrevSIDA’s progress toward achieving the component’s goals.

	 PSI has made limited progress toward helping more MARPs adopt safer sexual behavior.
   During the first year of the program, PSI concentrated primarily on conducting studies to
   determine baselines. In 2011 PSI completed its Priorities for Local AIDS Control Efforts
   (PLACE)4 study identifying venues and locations where high-risk behavior takes place.
1	
     This is from Haiti’s fourth national health survey, Enquête Mortalité, Morbidité et Utilisation des
     Services.
2	
     Request for Applications Prevention of Sexual Transmission of HIV/AIDS in Haiti, No. 521-10-002,
     February 5, 2010.
3	
     MARPs include high-risk youth, men who have sex with men, and commercial sex workers.
4	
     PLACE is a research tool created to systematically identify gaps in prevention programs and monitor

                                                                                                      1
      However, other studies the program funded either were delayed significantly or had not
      begun.

      According to USAID/Haiti officials, the next HIV prevalence survey results will not be
      available until 2017. Thus, while PSI’s behavior change messages were reaching MARPs
      through interpersonal communication activities, their impact on Haiti’s HIV infection rates will
      not be known until 2 years after the program is scheduled to end in 2015. According to the
      program’s monitoring and evaluation plan, PSI is not responsible for reporting the impact the
      program has on meeting its overall goal. Mission officials said they would use the data from
      the PSI surveys and activities to guide future prevention programs.

The audit also found that:

	 Indicators lacked baselines and did not reflect agreement requirements (page 4). Two had
   no baseline data, and several others did not pertain to the PrevSIDA program.

	 Some reported results were overstated (page 5). Some beneficiaries who attended training
   or public events were counted more than once, and this inflated the number of beneficiaries.

	 PrevSIDA did not reach all targeted MARPs (page 6). It did not reach truck drivers, migrant
   workers, people living with HIV/AIDS, women engaged in transactional sex,5 and men in
   uniform, primarily police.

	 PSI did not communicate or coordinate its activities with the Ministry of Public Health and
   Population (MSPP) (page 6). Ministry officials said PSI did not keep them informed about
   activities going on in their regions.

	 PSI did not include gender consideration in program activities (page 7). According to
   mission staff, this occurred partly because the focus on gender sensitivity issues came into
   effect 1.5 years after the program began.

To help USAID/Haiti improve PrevSIDA’s efficiency and effectiveness, RIG/San Salvador makes
the following recommendations.

1. 	Implement a corrective plan to address Population Services International’s delays in
    conducting baseline studies, and determine relevant targets for each of the indicators
    selected for reporting (page 4).

2. 	Review and evaluate in writing whether agreement indicators accurately reflect program
    activities and goals, and require Population Services International to report on the progress
    of these indicators in its reports to USAID (page 5).




    program coverage over time. PSI uses it to conduct annual mappings of MARPs and the venues where
    they congregate.
5
    The agreement defines transactional sex as multiple, concurrent partnering in overlapping sexual
    partnerships for economic reasons, either to support basic needs such as food or rent, or for items such
    as cell phones and clothes.

                                                                                                          2
3. 	 Require Population Services International to conduct activities in locations and intervention
     zones identified in the relevant studies to reach different groups and to avoid repeatedly
     reaching the same audience (page 5).

4. 	 Work with Population Services International to implement procedures for recording data on
     beneficiaries reached to avoid overcounting (page 5).

5. 	Implement an action plan to address the high-risk populations identified in the program
    objectives, and determine whether Prevention of Sexual Transmission of HIV/AIDS can help
    the identified vulnerable populations (page 6).

6. 	 Require Population Services International to share information on planned activities with the
     Ministry of Public Health and Population at the departmental level within the departments in
     which program activities are conducted (page 7).

7. 	Coordinate with Population Services International and the Ministry of Public Health and
    Population to address communications regarding the program, and implement a plan for
    improving communications at the department level (page 7).

8. 	Implement a plan for incorporating gender-disaggregated data into its service delivery
    methods for most-at-risk populations (page 8).

Detailed findings appear in the following section. The scope and methodology are described in
Appendix I. Management comments are included in their entirety in Appendix II, and our
evaluation of management comments is on page 9 of the report.




                                                                                                3
AUDIT FINDINGS 

Indicators Lacked Baselines and Did
Not Reflect Agreement Requirements
Automated Directives System (ADS) 203.3.4.5 states that once an award is executed, the
project staff must complete the agreement’s monitoring and evaluation plan with relevant
indicators and baseline data within the first 3 months. The cooperative agreement between
USAID/Haiti and PSI included 13 indicators corresponding to 4 result areas and 3 program
objectives. PSI was to conduct studies to determine the baseline data for the indicators. In
addition, PSI was to submit reports to USAID on a semiannual basis to describe any progress it
made toward reaching specific indicator goals.

After USAID/Haiti awarded the agreement, PSI provided baseline data for only 3 of the
13 indicators. More than a year into the program, PSI obtained baseline data for five more in
December 2011. In September 2012 the mission and PSI modified the agreement, revised the
program description, and dropped seven indicators. Subsequent to the modification, two of the
remaining six agreement indicators lacked baseline data.

In addition, PSI has not been reporting on progress for the indicators. Only one (Number of
individuals reached through interpersonal communication activities, disaggregated by MARP
group) was reported in the semiannual reports. Instead, PSI reported on five indicators for each
targeted MARP, four of which were not required by the agreement.

PSI also reported on two indicators that were not required by the agreement and were not
related to PrevSIDA activities (Number of condoms sold and Number of condoms distributed).
The condoms sold came from a different USAID-funded social marketing project. The condoms
distributed at project activities came from other sources and were not funded or obtained
through PrevSIDA.

PSI did not collect all baseline data primarily because of delays in completing the studies that
were supposed to provide the data. According to PSI officials, they were late because of the
cholera epidemic in Haiti and unrest surrounding the Haitian presidential elections in 2011.
Furthermore, according to the mission’s health monitoring and evaluation staff, USAID/Haiti did
not require PSI to submit required data for all indicators because the mission only tracked two
for reporting to the Office of the Global AIDS Coordinator: Number of the targeted population
reached and Number of MARPs reached with individual and/or small group level preventive
interventions that are based on evidence and/or meet the minimum standards required.

The lack of accurate performance monitoring and reporting tools (including relevant indicators
with baseline data and consistent progress reporting) makes it difficult for the mission to monitor
the program effectively and to determine whether it is meeting its objectives. Furthermore,
according to the agreement, the units of measurement for many of the end-of-program targets
are percentage increases or decreases from baselines. The significant delays that have
occurred in establishing baselines have decreased the amount of time by which to measure
program interventions, lessening the measurable impact.

   Recommendation 1. We recommend that USAID/Haiti implement a corrective plan to


                                                                                                 4
   address Population Services International’s delays in conducting baseline studies, and
   determine relevant targets for each of the indicators selected for reporting.

   Recommendation 2. We recommend that USAID/Haiti review and evaluate in writing
   whether agreement indicators accurately reflect program activities and goals, and
   require Population Services International to report the progress of these indicators in its
   reports to USAID.

Some Reported Results Were
Overstated
According to the terms of the cooperative agreement, each implementing partner is responsible
for planning and conducting interpersonal communication activities (peer education sessions,
town hall meetings, special events, and similar happenings) with MARPs in their intervention
zones. Four PSI subpartners, each of which focuses on a different high-risk group, conduct
these activities. In the program’s semiannual progress reports to USAID, PSI reports on
indicators that measure the number of MARPs reached through these interventions

A review of attendance records showed that two of the subpartners did not have controls in
place to prevent overcounting beneficiaries. In some instances, these subpartners would count
participants as “new beneficiaries” even if the participant previously had attended several
activities on the same topics. The monitoring and evaluation staff confirmed that the practice
was to count each person as a new beneficiary each time the person attended an activity,
regardless of previous attendance. In addition, one of the subpartners counted members of the
general population who attended various activities as MARPs reached through interventions.

These policies resulted in significantly overstated outreach results for some activities. For
example, subpartner officials said about 60 to 65 percent of the beneficiaries attended outreach
activities previously.

Subpartners said there are benefits to having beneficiaries attend multiple sessions. Over time,
subpartners are able to maintain relationships with beneficiaries and build reliable referral
networks to expand the number of first-time participants. Furthermore, the subpartners work
with marginalized populations not easily reached because there is still a social stigma in Haiti
against the gay population.

While maintaining contact with beneficiaries is an appropriate program goal, overstating the
number of MARPs reached though interpersonal communication activities resulted in inaccurate
reporting and misleading information on the MARPs.

   Recommendation 3. We recommend that USAID/Haiti ask Population Services
   International to conduct activities in locations and intervention zones identified in the
   relevant studies to reach different groups and avoid repeatedly reaching the same
   audience.

   Recommendation 4. We recommend that USAID/Haiti work with Population Services
   International to implement procedures for recording data on beneficiaries reached to
   avoid overcounting.




                                                                                                 5
Program Did Not Reach All Targeted
Groups
Component 2 of PrevSIDA was designed to reduce the number of new HIV infections in Haiti by
increasing the number of MARPs who adopt safe sexual behaviors. PSI planned to achieve this
result by identifying the size, characteristics, and locations of MARPs, standardizing approaches
to them, and reaching them nationwide through communications and improved service delivery.

PSI developed an outreach strategy for many MARP subgroups, including high-risk youth,
commercial sex workers, clients of sex workers, and men who have sex with men. However,
PSI did not develop effective outreach strategies for other at-risk populations, including truck
drivers, migrant workers, internally displaced people, people living with HIV/AIDS, women
engaged in transactional sex, and men in uniform, primarily police officers.

According to PSI, it was difficult to find partners willing to work with people living with HIV/AIDS
and men in uniform because PSI underestimated the amount of funding needed to reach these
two groups. Additionally, PSI officials said the program has not addressed women engaging in
transactional sex because of difficulties in finding women who identify themselves as part of this
population. For mobile populations (truck drivers, migrant workers, and internally displaced
people), PSI’s subpartner encountered difficulties reaching them and experienced high staff
turnover, which resulted in terminating the subagreement in July 2012. USAID/Haiti asked PSI
to work with other partners to reach these MARPs through other HIV prevention programs;
however, efforts have not been successful.

Reaching individuals in high-risk groups is key to achieving program objectives. Furthermore,
these vulnerable populations have significantly higher prevalence rates for HIV than the general
population. If not reached, they could contribute to perpetuating higher prevalence rates, or
pass the increased risk to the general population.

   Recommendation 5. We recommend that USAID/Haiti and Population Services
   International implement an action plan to address the high-risk populations identified in
   the program objectives, and determine in writing whether Prevention of Sexual
   Transmission of HIV/AIDS can help the identified vulnerable populations.

Partner Did Not Communicate and
Coordinate Activities With Host
Government
A key aspect of the PrevSIDA program was to reinforce MSPP’s decentralization by supporting
and training department-level communications clusters to coordinate, manage, and supervise
HIV prevention activities. According to the agreement, PSI was to support this effort by placing
field coordinators in each of six departments outside of Port-au-Prince. MSPP was responsible
for recruiting the field coordinators, and PSI was responsible for paying them to provide short-
term technical assistance and build capacity within the ministry.

However, PSI fell short in its efforts to support the communications clusters. PSI and MSPP did
not place field coordinators in the six departments as planned. In fact, only one was placed—in
Nippes Department—and the coordinator has other roles and responsibilities besides
PrevSIDA.

                                                                                                  6
Furthermore, MSPP representatives in the Nord and Nord-Est Departments and in Petion-Ville
said PSI did not communicate or coordinate its activities with MSPP. A representative in Nord
said PSI had not kept them informed of project activities taking place in their own department.
MSPP officials in Nord-Est said PSI did not provide a work plan listing all the subpartners, along
with details about the activities going on in their department.

According to PSI and USAID/Haiti, the efforts to recruit departmental coordinators for five of
the six departments failed because of the salary offered. USAID/Haiti has discussed with PSI
the need for better communication and cooperation with MSPP, and PSI agreed to improve
communications. Yet the problems raised by MSPP officials indicate that coordination problems
persist.

Because of the lack of coordination and communication with MSPP, PrevSIDA is not reinforcing
collaboration at the departmental level as envisioned in the program strategy. Moreover, MSPP
officials in the Nord and Nord-Est Departments are not aware of PSI’s HIV prevention activities
being implemented in their departments, and that may impede achieving program goals.

   Recommendation 6. We recommend that USAID/Haiti require Population Services
   International to share information on planned activities with the Ministry of Public Health
   and Population at the departmental level within the departments in which program
   activities are conducted.

   Recommendation 7. We recommend that USAID/Haiti coordinate with Population
   Services International and Ministry of Public Health and Population to address
   communications regarding the program, and implement a plan for improving
   communications at the departmental level.

Partner Did Not Include Gender
Consideration in Program Activities
In its agreement with USAID, PSI stated that it would incorporate gender issues into the
program because “women, particularly young women, are disproportionately affected by HIV,
and because gender-based violence is a serious issue in Haiti.” PSI also stated that information
based on specific behavioral motivations for men and women would be incorporated into its
service delivery methods for MARPs, and that the program would address the “economic
realities of girls and women that lead them to participate in transactional and commercial sex.”

Furthermore, the USAID Administrator emphasized in a message on April 26, 2011, that
“gender issues remain at the forefront of our programming and policy.” Consistent with this
message, effective January 17, 2012, ADS 200.3.1.1, “Promote Gender Equality and Female
Empowerment,” requires the Agency to incorporate gender equality and female empowerment
systematically across USAID’s ongoing programs and projects. Specifically, USAID would:

	 Ensure that programs explicitly and deliberately seek to eliminate gaps between the status
   of men and women.

	 Ensure that the different roles, responsibilities, and expertise of women and men are
   reflected in project design, implementation, and evaluation.




                                                                                                 7
	 Ensure that women and men are full and equal partners in consultation, planning, program
   and project design, as well as implementation and evaluation.

	 Use the expertise and leadership skills of women and girls.

However, the audit found that USAID and PSI were not incorporating gender sensitivity issues
into the program. Gender issues were not part of the activity design as noted in the lack of
mention in the implementation plan or the monitoring and evaluation plan. While USAID and PSI
had defined indicators disaggregated by sex in the agreement and the 2010-2015 PrevSIDA
performance management plan, these indicators were not tracked.

The data collected at the MARP level are disaggregated by sex. Yet doing this alone did not
meet the goals or address the issues of gender equality as spelled out in the agreement, ADS
200, the 2007 gender assessment, or the activity approval document. PSI did not incorporate
the information obtained from disaggregating the gender data into its service delivery methods
for MARPs and had not addressed its concerns about women and girls who participate in
transactional and commercial sex.

In addition, PSI did not use the information obtained to (1) design activities that would eliminate
gaps between the status of men and women, (2) reflect the different roles, responsibilities, and
expertise of women and men in project implementation and evaluation, (3) ensure that women
and men are full and equal partners, and (4) use the expertise and leadership skills of women
and girls.

According to mission staff, this occurred because the focus on gender sensitivity issues came
into effect 1.5 years after the program began. In addition, the mission found the
recommendations in the 2007 gender assessment vague and did not know exactly how to
incorporate the factors and recommendations into the program design.

Without properly addressing gender inequalities, the program’s impact will not be as strong, and
the goals might not be achieved.

   Recommendation 8. We recommend that USAID/Haiti implement a plan for
   incorporating gender disaggregated data into its service delivery methods for most-at-
   risk populations.




                                                                                                 8
EVALUATION OF MANAGEMENT
COMMENTS
In its response to the draft report, USAID/Haiti agreed with all eight recommendations. Based on
our evaluation of management comments on our draft report, we acknowledge that
management decisions have been reached on seven of the eight recommendations and final
action has been taken on one. Our detailed evaluation of management comments follows.

Recommendation 1. USAID/Haiti agreed with the recommendation as it related to determining
and documenting relevant targets for each of the indicators selected for reporting. The draft
report also recommended that the mission implement a corrective plan to address PSI’s delays
in conducting baseline studies for agreement indicators. The mission addressed the aspect of
the recommendation related to baseline studies by agreeing with PSI to drop indicators not
required by PEPFAR from the agreement. Once that is done, all remaining indicators will have
baseline data. The mission plans to amend the agreement and complete the target-setting
exercise by April 30, 2013. Based on the mission’s planned actions and estimated time frames,
a management decision has been reached for this recommendation.

Recommendation 2. USAID/Haiti’s Health Office and the Office of Acquisition and Assistance
jointly agreed on the need to review and document all the agreement indicators for PSI’s
performance requirements accurately. The mission will select indicators to ensure that activities
accurately reflect the project’s goal and objectives, and require PSI to report on them. Mission
officials expect to complete this action by April 30, 2013. Based on the mission’s response and
planned actions, a management decision has been reached on this recommendation.

Recommendation 3. USAID/Haiti’s Health Office team worked with PSI to prepare service
delivery network-level plans that link the zones identified in the relevant studies with the service
delivery points in the same area. The mission expects PSI to complete these plans by the end
of June 2013. Furthermore, the mission is working with PSI on developing a database linking
service delivery and sales points with the identified zones for purposes of improving the referral
process, and it expects to have the database available by April 30, 2013. Based on the
mission’s response and estimated time frames to complete these actions, a management
decision has been reached on this recommendation.

Recommendation 4. The mission has taken action with PSI to develop a more robust
monitoring and reporting system formalized in PSI’s operations manual that includes processes
to offset overcounting beneficiaries. USAID/Haiti plans to work with the Ministry of Health and its
other partners at the National Behavior Change Communication cluster on how to address
weaknesses in the current methodology used to count beneficiaries. USAID/Haiti will ask the
Ministry of Health for input on providing updated national guidance for collecting site-level
beneficiary data. The mission believes that the updated guidance should be sent out to partners
by September 30, 2013. As a result of the mission’s response, a management decision has
been reached on this recommendation.

Recommendation 5. The mission agreed to develop an action plan to address the specific
needs of the identified vulnerable populations under a new prevention project expected to be
awarded in April 2013. However, the mission’s response did not agree to determine in writing


                                                                                                  9
whether the PrevSIDA project could further assist the identified vulnerable populations; nor did
the mission provide time frames for completing proposed actions. Therefore, a management
decision has not been reached on this recommendation.

Recommendation 6. Mission officials agreed to require PSI to share information on its planned
activities with the Ministry of Health and Population’s departmental directorates in the
departments where program activities are conducted. The mission will require PSI to share
information on its planned activities with the central level directorate. PSI also must submit
documentation of transmitted documents to each of the project’s five supported departments as
well as to the central level directorate on a quarterly basis. Based on the actions taken by the
mission, and documentation provided, a management been reached on this recommendation
and final action has been taken.

Recommendation 7. USAID/Haiti’s Health team is working with PSI on developing a
communications strategy for improving PSI’s communications with Haitian health authorities.
Mission officials and PSI also jointly agreed that PSI’s country representative will make quarterly
supervisory visits in the departments where program activities are conducted and meet with
departmental authorities to provide project updates and discuss emerging issues. The mission
expects to complete the communications strategy by March 31, 2013. Based on the mission’s
response, a management decision has been reached on this recommendation.

Recommendation 8. USAID/Haiti’s Health and Program Offices agreed to work jointly with PSI
to implement a plan for incorporating gender-disaggregated data into its service delivery
systems for MARPs. The mission expects to complete this action by April 30, 2013. Based on
the mission’s response, a management decision has been reached on this recommendation.




                                                                                                10
                                                                                        Appendix I



SCOPE AND METHODOLOGY
Scope
RIG/San Salvador conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions in accordance with our audit objective. We believe that the evidence obtained
provides that reasonable basis.

The purpose of the audit was to determine whether PrevSIDA is achieving its main goal of
reducing the number of new HIV infections in Haiti through the increased adoption of safer
sexual behaviors.

USAID/Haiti implemented the PrevSIDA program through two awards: a $9 million, 4.5-year
cooperative agreement awarded to World Vision, and an $8.9 million, 4.5-year cooperative
agreement awarded to PSI. USAID/Haiti ceased funding the agreement with World Vision in
March 2012. As of October 23, 2012, USAID/Haiti had obligated $6,620,941 and disbursed
$3,392,394 for program activities, which represents the amount tested.

The audit covered the period from the program’s inception, September 15, 2010, through
September 30, 2012. We conducted audit fieldwork from July 11 to October 30, 2012, at
USAID/Haiti, PSI’s offices in Petion-Ville and Cap-Haitien, and the offices of PSI’s
subawardees, the American Red Cross, Fondation pour la Santé Reproductive et l’Education
Familiale, Management Resources for Community Health (MARCH), and SEROvie. We also
met with MSPP representatives in the Nord and Nord-Est Departments and the Programme
National de Lutte Contre le Sida section in Petion-Ville. We conducted site visits to activities in
Petion-Ville, Cap-Haitien, Ouanaminthe, and Trou-du-Nord.

In planning and performing the audit, we assessed the significant internal controls that the
mission used to manage the program. These included reviewing and approving work plans,
reviewing semiannual progress reports, and conducting site visits. We also reviewed the
mission’s annual fiscal year 2011 assessment of internal controls required by the Federal
Managers’ Financial Integrity Act of 1982.

Methodology
To determine whether USAID/Haiti appropriately managed the program activities, we met with
USAID/Haiti officials, including the agreement officer’s representative, HIV/AIDS coordinator,
monitoring and evaluation adviser, and program officer. We reviewed relevant documentation
including agreements, the technical proposal, work plans, the performance management plan,
progress reports, and the program’s PLACE study. We interviewed PSI staff members, including
the chief of party, program managers, monitoring and evaluation employees, and the financial
management director. We reviewed policies and procedures for program and financial
management. We interviewed subgrantee staff members from the American Red Cross,
Fondation pour la Santé Reproductive et l’Education Familiale, Management Resources for
Community Health, and SEROvie. We also interviewed peer educators, field managers, and
program beneficiaries.


                                                                                                11
                                                                                       Appendix I


We visited site locations in three of the six departments where program activities were
implemented (Ouest, Nord, and Nord-Est). We judgmentally selected the locations to observe
activities implemented by PSI and its active subpartners. We observed activities implemented
by American Red Cross, Fondation pour la Santé Reproductive et l’Education Familiale, and
SEROvie. We did not conduct site visits to Management Resources for Community Health
activities because PSI terminated its contract with the organization before the audit site visits.
Since the activities reviewed were selected based on a judgmental sample instead of a
statistical one, the results are limited to the items tested and cannot be projected to the entire
audit universe.




                                                                                               12
                                                                                         Appendix II



MANAGEMENT COMMENTS 


                                                                                            

To:	            Jon Chasson, Regional Inspector General/San Salvador

From:	          Herbert Smith, Acting Mission Director /s/

Date:	          March 4, 2013

Subject:	       Mission Response to Audit of USAID/Haiti’s Prevention of Sexual Transmission
                of HIV/AIDS Program (RIG Report No. 1-521-13-00X-P)


This memorandum represents USAID/Haiti’s actions taken to address and reach the
management decisions for the recommendations reported in the Audit of USAID/Haiti’s
Prevention of Sexual Transmission of HIV/AIDS Program (RIG Report No. 1-521-13-00X-P).

         Recommendation No. 1: We recommend that USAID/Haiti implement a corrective plan
         to address Population Services International’s delays in conducting baseline studies,
         and determine and document relevant targets for each of the indicators selected for
         reporting.

Mission Response
We agree with the recommendation as it relates to determining and documenting relevant
targets for each of the indicators selected for reporting. The corrective action will require PSI to
solely report on the PEPFAR indicators required for reporting to the Office of the Global AIDS
Coordinator (OGAC), as well as for tracking and reporting the project’s performance under the
current agreement by USAID/Haiti. Based on discussions between USAID/Haiti and PSI in
December 2012, USAID is removing non-PEPFAR indicators from the agreement. It was some
of these indicators which still required baseline studies to inform target setting. As these
additional indicators will no longer be required, USAID/Haiti will not require additional baseline
study activities. Baseline data for the required PEPFAR indicators is available and targets will
be established based on FY09-FY12 targets and achievements. No additional baseline studies
will be required to inform this target setting exercise. As this will require modification to the
existing agreement, USAID/Haiti expects to complete the modification and target setting
exercise by April 30, 2013.

         Recommendation No. 2: We recommend that USAID/Haiti review and evaluate in
         writing whether agreement indicators accurately reflect program activities and goals, and
         require Population Services International to report the progress of these indicators in its
         reports to USAID.

Mission Response

                                                                                                   13
                                                                                        Appendix II


We agree with the recommendation. Both OAA and Health Offices have agreed upon the need
to accurately review and document all the agreement indicators in reference to PSI’s
performance requirements. Indicators will be selected based on the need to track the project’s
performance. This action will be completed by April 30, 2013. In addition, corrective actions will
include the modification of the agreement and require reporting on the newly selected
indicators, as well as to require submission of quarterly performance reports in addition to semi­
annual and annual reports. Within 15 days of receiving project quarterly reports, the COR will
provide comments to PSI as they relate to necessary feedback and corrective actions. This
feedback will be documented and placed within the project file. This will allow the Health
Monitoring and Evaluation team to better monitor performance progress made and facilitate
implementation of proactive and corrective actions to ensure that activities accurately reflect the
project’s goal and objectives. This action will be completed by April 30, 2013.

       Recommendation No. 3: We recommend that USAID/Haiti ask Population Services
       International to conduct activities in locations and intervention zones identified in the
       relevant studies to reach different groups and avoid repeatedly reaching the same
       audience.

Mission Response
We agree with the recommendation and appropriate actions have been already taken to ensure
that PSI, in collaboration with other USG/PEPFAR partners, plan and implement prevention
activities in locations and intervention zones identified as “hot zones” in the PLACE studies.
First, the expansion of the HIV Testing and Counseling mobile strategy with the
“Accompagnateurs” will allow PSI to expand outreach activities to targeted groups in their
mobile testing catchment areas. This model ensures that for those clients testing HIV positive
through the mobile testing services supported by PSI, a companion is provided (employed by
PSI) to assist with engagement into treatment services. Documentation of this activity is
provided through: 1) PSI testing registers (capturing HIV+ clients); 2) facility-based registers
(capturing engagement into services); and 3) the MESI PEPFAR database platform which
captures clients engaged into services at facilities receiving PEPFAR funding. In addition, the
active use of mobile teams to respond to geographic areas (rather than receiving clients at static
service delivery points) will allow for targeted invention activities throughout the country. This
approach will inform targeted interventions within geographic areas defined as HIV spots
throughout the country. While there is risk for double-counting individuals receiving these
interventions, efforts to ensure accurate data capture and reporting are being implemented to
ensure accurate reporting to USAID/Haiti. In addition, efforts of Government of Haiti reporting
systems being supported with USG assistance to further systematize improved reporting
schemes. This is further clarified in the response to Recommendation No. 4.

Second, the Health Office team worked with PSI to prepare service delivery network-level work
plans that links the identified locations or zones with the service delivery points in the same
area. This will allow the beneficiaries to have access to HIV Counseling and Testing services
and other health care services along a continuum of integrated package of primary health care
based on a referral and counter-referral system. The work plans are to be completed by PSI by
the end of Q3 FY13.

Third, USAID/Haiti is currently working with PSI to finalize a user-friendly data base that links
the service delivery points, sales points and the hot spots. This will ease the referral and
counter-referral process. This data base will be available by April 30, 2013.



                                                                                                    14
                                                                                       Appendix II


       Recommendation No. 4: We recommend that USAID/Haiti work with Population
       Services International to implement procedures for recording data on beneficiaries
       reached to avoid over-counting.

Mission Response
We agree with the recommendation. The Health Office M&E team has worked with PSI on their
monitoring and reporting system to address weaknesses identified in their tracking and
monitoring system following OIG recommendations after the audit of USAID/PROMARK, also
implemented by PSI. A final product of this exercise has been the revision of the operational
manual of their management and information system that was completed in FY12. This revised
manual includes processes to offset over-counting. It has been mandated that PSI use this tool
as the primary data collection instrument. PSI will work with its sub-grantees to ensure that they
use the same norms and procedures to accurately collect and report data on all beneficiaries
reached during program activities.

While USAID/Haiti will mandate that the above-defined tool for data collection be supported by
the PrevSIDA project, there remain challenges with Ministry of Health information systems in
Haiti. The procedure and registers used to collect site level data are determined by the Ministry
of Health. It involves counting the number of beneficiaries reached versus the number of
beneficiaries/sessions dispensed, based on the number of sessions required by module, to
certify that beneficiaries have been exposed or trained on a specific topic. The USAID/Haiti
Health team and PSI are discussing with the Ministry of Health and its other partners at the
National Behavior Change Communication cluster how to address weaknesses in the current
methodology and facilitate the harmonization of partners’ approach to record data on
beneficiaries reached during a counseling session. While it’s not a stand-alone USAID action
and will require input from the MOH, USAID/Health believes that updated national guidance
should be sent out to relevant partners by September 30, 2013 in order to clarify and prescribe
more robust processes for data collection and recording related to behavior change
communication activities at the site level.

Meanwhile, USAID/Health will request PSI to stop using the Ministry of Health register and
methodology because of the weaknesses identified by this audit recommendation.
USAID/Health will instruct PSI to use its own management and information system (protocols,
definitions, and registers) to collect and report data from the site level. Simultaneously, the MOH
will be informed about USAID’s decision to change the way it collects this information based on
this audit recommendation.

       Recommendation No. 5: We recommend that USAID/Haiti and Population Services
       International implement an action plan to address the high-risk populations identified in
       the program objectives, and determine in writing whether Prevention of Sexual
       Transmission of HIV/AIDS in Haiti program can contribute any further efforts in working
       with the identified vulnerable populations.

Mission Response
We agree with the recommendation and actions have been taken to respond to the needs of
these high-risk populations. First, through prevention components under other projects
(including PEPFAR-funded comprehensive service delivery providers), USAID ensured that
these groups are exposed to general prevention messages.




                                                                                                15
                                                                                     Appendix II


Second, as stated earlier, efforts are underway to link these groups with health service delivery
points that can respond to their specific needs through network level work planning between PSI
and the PEPFAR service delivery partner organizations.

Third, In July 2012 Secretary Clinton announced a $20 million Key Population Challenge Funds
(KPCF) to support country-led plans to expand evidence-based, sustainable HIV services for
key populations or high risk groups. In collaboration with USAID/PEPFAR in Dominican
Republic USAID/PEPFAR Haiti submitted a joint proposal aiming to fill gaps in term of providing
services to other vulnerable populations identified by PrevSIDA in their recent studies.
Unfortunately the proposal was not approved for additional funding; however based on
discussions with USAID/Health colleagues in the Dominican Republic, the two country teams
are currently collaborating to move forward on activities defined within the proposal, using
existing project funds in USAID/Haiti and USAID/Dominican Republic prevention projects.
Lastly, with the EVIHT general prevention project expected to be awarded in Q2 FY13, USAID
Health will continue to reinforce general prevention messages to reach these high risk groups
while working with PEPFAR in-country and DC colleagues on developing an action plan that
could help responding to the specific needs of the other identified high risk populations. By
identifying other sources of funding and with the EVIHT project to be awarded soon
USAID/Health believes that a more comprehensive and integrated package of prevention
services will be offered to these groups by the end of September 2013.

   Recommendation No. 6: We recommend that USAID/Haiti require Population Services
   International to share information on planned activities in writing with the Ministry of
   Public Health and Population at the departmental level within the departments in which
   program activities are conducted. 

Mission Response
We agree with this important recommendation. In January 2013, USAID/Haiti held a meeting
with PSI to mandate sharing of information on planned activities in their intervention areas with
the departmental directorates [Direction Departementale de la Sante (DDS)], as well as at the
Programme national de lutte contre le sida (PNLS) central level directorate. This action,
motivated by the audit recommendation, allows USAID to ensure that Health Authorities are
aware of PrevSIDA activities, as well as to facilitate informed and timely supervisory visits to
assess the quality of services PSI is delivering to the targeted groups. PSI will be required to
submit documentation of transmitted documents to each of the project’s five supported
departments, as well as the transmittal of documents to the PNLS, on a quarterly basis.
USAID/Haiti will ensure that documentation of email exchanges between PSI and the Health
Departmental Authorities has been forwarded to the USAID Health Office for archiving within the
project file. USAID Health prioritizes technical feedback coming from the Ministry of health
during these visits to ensure that PSI is implementing activities in compliance with government
policies and guidelines, as well as in response to national HIV prevention strategies.

       Recommendation No. 7: We recommend that USAID/Haiti coordinate with Population
       Services International and Ministry of Public Health and Population to address
       communications regarding the program and implement a plan for improving
       communications at the department level.

Mission Response
We agree with this recommendation and have already taken action. On November 14, 2012
USAID Health met with PSI to elaborate a communication strategy for improving communication
with Departmental health authorities. This plan captures roles and responsibilities for

                                                                                              16
                                                                                     Appendix II


engagement with Government of Haiti counterparts, as well as capturing PSI project
management field monitoring/supervisory visit frameworks. It was jointly agreed that PSI’s
Country Representative will conduct quarterly supervisory visits in the geographic departments
where the project is implemented and will use that opportunity to meet with the Departmental
Authorities to provide ongoing project updates, as well as to discuss emerging issues.
Documentation/meeting notes related to these visits will be submitted to USAID/Haiti on a
routine basis. Following the same approach, the Project Director is conducting monthly visits in
these departments to assess project activities, as well as meet and conduct joint supervisory
visit with the health departmental technical staff. The communication strategy will be completed
by March 31, 2013.

       Recommendation No. 8: We recommend that USAID/Haiti implement a plan for
       incorporating gender disaggregated data into its service delivery method for most-at-risk
       populations.

Mission Response
We agree with the recommendation. As specific health services are being provided to men who
have sex with men (MSM) and female commercial sex workers, USAID/Health M&E team,
jointly with USAID/Haiti Program Office, will work with PSI to implement a plan for incorporating
gender disaggregated data, including MSM, into its service delivery system. This action will be
completed by April 30, 2013. USAID/Haiti will ensure that disaggregated gender data is clearly
captured in all quarterly reporting and that AOR/PSI management discussions include updates
on gender sensitive programming and responses (if needed) to issues identified in ongoing data
analysis.




                                                                                              17
U.S. Agency for International Development 

       Office of Inspector General 

      1300 Pennsylvania Avenue, NW 

          Washington, DC 20523 

            Tel: 202-712-1150 

            Fax: 202-216-3047 

           http://oig.usaid.gov
